CONTROLS OVER AMMUNITION WITHIN THE OFFICE OF
SECURE TRANSPORTATION




               U.S. Department of Energy
               Office of Inspector General
               Office of Inspections and Special Inquiries




 Inspection Report
 Unauthorized Weapon Discharge and
 Related Security Policies and
 Procedures at Sandia National
 Laboratory-New Mexico




 INS-O-08-01                                February 2008
UNAUTHORIZED WEAPON DISCHARGE AND RELATED
SECURITY POLICIES AND PROCEDURES AT SANDIA
NATIONAL LABORATORY-NEW MEXICO

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective                 1

              Observations and Conclusions               1


              DETAILS OF FINDINGS

              Door Alarms                                4

              Security Post Communication and Response   5

              Central Alarm Station Operations           6

              Alarm Assessment                           7


              RECOMMENDATIONS                            9


              MANAGEMENT COMMENTS                        9


              INSPECTOR COMMENTS                         9


              APPENDICES

              A. Scope and Methodology                   10

              B. Management Comments                     11
Overview

INTRODUCTION       The Department of Energy’s (DOE’s) Sandia National Laboratory-
AND OBJECTIVE      New Mexico (Sandia) is involved in a variety of research and
                   development programs to enhance national security through
                   technology. Sandia’s primary mission is to implement the Nation’s
                   nuclear weapons policies through research, development, and testing
                   related to nuclear weapons. Sandia is administered by the National
                   Nuclear Security Administration (NNSA) and is operated for NNSA
                   by Sandia Corporation, a subsidiary of Lockheed Martin Corporation.

                   Sandia maintains a protective force that is trained and equipped to
                   secure its facilities and operations. On October 24, 2006, a Sandia
                   Security Police Officer (SPO) discovered what appeared to be a
                   bullet hole in an exterior door on the rooftop of Building 6585 in
                   Technical Area V at Sandia, which is a controlled security area.
                   This door allows access to SPO Post 580, which is part of the
                   security posture for Technical Area V. Sandia did not have any
                   report of a weapon discharge to account for the hole. Sandia
                   conducted three internal investigations and concluded that the
                   incident occurred on or about October 22, 2006. One Sandia
                   investigation determined it was likely a .40 caliber round that went
                   through the door, the same caliber used by the Sandia SPOs.
                   However, Sandia could not positively identify who fired the round.

                   Concerns regarding the incident were raised to the Office of
                   Inspector General. Therefore, we initiated an inspection to review
                   security policies, procedures, and practices relevant to the
                   circumstances surrounding the incident.

OBSERVATIONS AND   We found violations of security policies and procedures relevant to
CONCLUSIONS        the bullet hole incident. Further, some of these violations may have
                   contributed to Sandia’s inability to pinpoint more details about the
                   incident. Specifically, we found that around the time the incident is
                   believed to have occurred:

                      •   The alarms for the rooftop doors of Building 6585 were on
                          “access mode” for extended periods ranging from about 24
                          hours to 37 hours, inconsistent with applicable policy. This
                          condition precluded detection of entry and exit to the area; and,

                      •   A Sandia SPO assigned to Building 6585 failed to verbally
                          respond to three consecutive required radio post checks,
                          and the Sandia protective force failed to react to the
                          situation in accordance with applicable procedures.



Page 1                                Unauthorized Weapon Discharge and
                                      Related Security Policies and Procedures
                                      at Sandia National Laboratory–New Mexico
         In addition, we found other policy and procedural violations that
         were routinely occurring, to include:

            •   Central Alarm Station (CAS) operators were not signing on
                to the alarm system when they came on duty, in violation of
                a Sandia Protective Force General Order. Logging on to
                the system creates an accountability record of who is
                responsible for the CAS operations, to include alarms, radio
                checks, and dispatching; and,

            •   When alarms for the rooftop doors of Building 6585 were
                activated (set off), frequently there was not an immediate
                assessment of the cause of each alarm, in violation of DOE
                policy. For our sample period, 32 percent of the 198
                alarms activated were not assessed within 10 minutes.
                Further, 13 percent were not assessed for 1 hour or more,
                with the longest time period being 5 hours and 12 minutes.

         As stated previously, Sandia conducted three internal
         investigations in an attempt to determine when the bullet was fired
         through the door and by whom. A November 2006 investigation
         by the Sandia protective force did not identify the individual who
         fired the round. No report was written.

         The second investigation was conducted by the Sandia Corporate
         Investigations office. A December 13, 2006, report concluded that
         “A lack of proper supervision, poor audit trails, lack of internal
         controls, no direct evidence, and a failure by the responsible
         individual(s) to come forward, has made an identification of the
         individual(s) responsible for the bullet hole in the door
         unattainable at this time.” The report stated that “In summary, this
         has led to a serious breakdown in command and control.”

         The third investigation was performed by the Sandia Security
         Incident Management Program (SIMP). In a Report of Security
         Incident/Infraction dated March 22, 2007, SIMP concluded that
         “There is circumstantial evidence indicating [redacted] is the
         responsible individual for this incident. However, there is not
         enough physical evidence or testimonial evidence to allow SIMP
         to definitively determine responsibility for this incident.”

         We noted that, consistent with our findings, the three internal
         investigations identified violations of security policies and
         procedures. While none of the investigations made any
         recommendations for corrective actions, attached to the final SIMP



Page 2                                    Observations and Conclusions
         Report was a July 27, 2007, corrective action narrative provided by
         Sandia protective force management. This document stated that
         since the performance deficiencies were systemic in nature, the
         root cause was management failure and not any single point failure
         or individual operator action or inaction. Corrective actions
         identified included (1) the creation of an operations manager
         position with exclusive responsibility for protective force
         operations and (2) the institution of specific guidance on alarm
         acknowledgement and assessment, periodic alarm log reviews, and
         formal documentation of management’s expectations for
         operational oversight of shift operations.

         In addition, a security system review was conducted by Sandia
         management and resulted in the identification of performance
         deficiencies. In August 2007, Sandia management briefed the
         NNSA Sandia Site Office on procedural and administrative
         changes relating to CAS operators logging on to the alarm system,
         prescribed times for acknowledgement and assessment of alarms,
         and documenting the Daily Activity Report any time an alarm is
         not assessed in a timely manner. In addition, Sandia management
         is seeking clarification from NNSA on the requirement to
         immediately assess alarms due to Sandia’s belief that
         “immediately” is a largely unachievable standard.




Page 3                                   Observations and Conclusions
Details of Findings

DOOR ALARMS           We found that, around the time the bullet hole incident is believed to
                      have occurred, the alarms for the rooftop doors of Building 6585
                      were on “access mode” for extended periods ranging from about 24
                      hours to 37 hours, inconsistent with applicable policy. This
                      condition precluded detection of entry and exit to the area.

                      Building 6585 contains office space used by Sandia research groups, to
                      include classified work. The rooftop of Building 6585 is used as part of
                      a broader protection strategy that includes the prevention of theft or
                      diversion of special nuclear material from other areas. DOE Manual
                      470.4-2, “Physical Protection,” requires that all intrusion detection
                      system sensors used to protect safeguards and security interests must
                      annunciate directly to alarm stations when an alarm is activated and that
                      alarm stations must provide a capability for monitoring and assessing
                      alarms and initiating responses to safeguards and security incidents.

                      Sandia Protective Force Operations General Order 16, CAS/SAS
                      Operations, states:

                          When a sensor is in an “access mode,” the sensor is not providing
                          any alarm coverage. This mode is used when an alarm point is
                          being used by authorized personnel or the area had been accessed.

                          When a sensor is in a “secure mode,” the sensor is providing
                          both intrusion alarm and tamper alarm coverage. This mode is
                          used when alarm coverage is required and no other
                          compensatory measures are in place.

                      A Sandia official told us that it is Sandia’s policy that doors are to be
                      alarmed unless there is a need to access an area. We were also told
                      that doors are not to remain in “access mode” for excessive periods of
                      time and that, during non-operational hours, doors are to be placed in
                      the “secure mode.” We noted, however, that these requirements were
                      not written into any of the Sandia Physical Security policies and
                      procedures or Protective Force General Orders.

                      From our review of records, we determined that the alarm for the
                      door with the bullet hole was turned to “access mode” at 11:31 PM
                      on October 21, 2006, and not returned to “secure mode” until nearly
                      37 hours later. Also, there were three other door alarms on the same
                      rooftop that remained in “access mode” for nearly 24 hours from
                      October 22 to October 23, 2006.

                      Consistent with our finding, the SIMP Report of Security
                      Incident/Infraction stated that:



Page 4                                                              Details of Findings
                    The alarms for the roof doors had been placed in “access
                    mode” during the entire time in question. . . . This made it
                    impossible to use alarm information to collaborate [sic]
                    information obtained through the interviews with the officers
                    who worked Post 580 during the time in question. It is not
                    normal procedure to place building alarms in “access mode”
                    for an extended period of time like this.

                We were told by a Sandia management official that CAS operators
                had become accustomed to leaving the rooftop alarms in “access
                mode” to accommodate the SPO whose responsibility it was to
                frequently patrol the rooftop. We were also told that it had become
                apparent that SPOs felt that, since the building was continuously
                patrolled and the classified area was separately alarmed, there was
                no risk to putting the rooftop alarms in “access mode.” However,
                Sandia management said that this behavior clearly did not meet
                protective force management expectations and that management
                did not endorse discretionary judgment in this respect. Sandia
                management said that they implemented corrective action.

SECURITY POST   We found that, around the time the bullet hole incident is believed
COMMUNICATION   to have occurred, a Sandia SPO assigned to Post 580 at Building 6585
AND RESPONSE    failed to verbally respond to three consecutive required radio post
                checks, and the Sandia protective force failed to react to the situation
                in accordance with applicable procedures. Sandia General Order 16 in
                effect at the time of the incident stated that CAS operators shall
                “Conduct post security checks of Sandia Posts by performing a roll
                call using radio or phone to establish post and patrol status for welfare
                and location every half-hour on the half-hour.” (Sandia General Order
                16 has since been revised to require post security checks every hour.)

                We determined that during the evening of October 22, 2006, a
                radio check at approximately 10:30 PM did not receive a verbal/
                audio transmission response from Post 580. The radio was keyed
                (button pressed) for seven seconds, which did not constitute an
                effective response to the required radio post check. The next two
                consecutive required radio post checks at approximately 11:00 PM
                and 11:30 PM went completely unanswered.

                Sandia General Order 16 also states that when there is “No Contact
                With a Post or Patrol,” the CAS operator must notify the Field
                Lieutenant, dispatch personnel to search for the SPO, and attempt to
                contact the SPO via pager. In addition, the results must be
                documented on the Daily Activity Report, to include the reason for the
                lack of contact. However, we determined that:




Page 5                                                        Details of Findings
                             •   The CAS failed to notify the Field Lieutenant after the
                                 missed post checks at 10:30 PM, 11:00 PM, and 11:30 PM;

                             •   When the CAS finally took action after the third missed
                                 post check at 11:30 PM, the CAS notified a roving SPO
                                 rather than the Field Lieutenant;

                             •   In all three cases, the CAS failed to page Post 580. It was
                                 not until the roving SPO suggested paging the SPO at Post
                                 580 that the CAS took this action at 11:36 PM, more than 1
                                 hour after the first missed post check. Post 580 finally
                                 communicated with the Field Lieutenant at 11:51 PM; and,

                             •   The missed radio checks were not documented on the Daily
                                 Activity Report for the evening of October 22, 2006. The
                                 Daily Activity Report showed one entry at 9:50 PM and the
                                 next entry at 1:17 AM on October 23, 2006.

                          The SIMP Report of Security Incident/Infraction and a
                          November 22, 2006, letter to the protective force Manager titled
                          “Post checks for the evening of October 22, 2006” raised the issue
                          of missed radio checks involving Post 580. In addition, the SIMP
                          Report also addressed the fact that there was nothing noted in the
                          Daily Activity Report indicating that Post 580 did not respond to a
                          scheduled post check. Neither of these documents contained
                          recommendations for corrective action. The security system
                          review conducted by Sandia management recognized that
                          unanswered radio post checks were not properly resolved.
                          However, the August 2007 Sandia management briefing to the
                          Sandia Site Office did not specifically address corrective actions in
                          the section on procedural and administrative changes.

CENTRAL ALARM      We found that CAS operators were not signing on to the alarm
STATION OPERATIONS system when they came on duty, in violation of a Sandia Protective
                   Force General Order. The Sandia protective force operates two
                   CASs (North and South) that monitor alarms, closed circuit
                   televisions, and operational communications with protective force
                   personnel. Sandia General Order 16 requires each CAS operator,
                   upon shift change, to log on to the Sandia Central Command System
                   (SCCS). The order states that “A CAS operator must be logged onto
                   the SCCS at all times.” Logging on to the SCCS creates an
                   accountability record of who is responsible for the CAS operations,
                   to include alarms, radio checks, and dispatching.

                          We interviewed the two CAS operators who were on duty during the
                          evening of October 22, 2006, when it was believed that the bullet


Page 6                                                                  Details of Findings
             was fired into the door on the rooftop of Building 6585. Both
             operators said that they did not log on to the SCCS. We noted that
             the previously mentioned November 22, 2006, letter raised this
             issue; however, no recommendation for corrective action was made.

             The two CAS operators further said that they had not logged on to
             the system in many years. We subsequently reviewed the SCCS
             log-on records for the month of October 2006. The records were
             divided between the North CAS and the South CAS. It appeared
             that the North CAS operators were logging on to the SCCS;
             however, there were no CAS operator entries for the South CAS.

             The security system review conducted by Sandia management
             recognized that CAS operators were not logging on SCCS. The
             August 2007 Sandia management briefing to the Sandia Site Office
             addressed this issue in the section on procedural and administrative
             changes, stating that logging on to SCCS was mandatory for all
             CAS operators and that this would be verified by on-shift
             supervisors during random analysis of CAS records. In addition,
             we were told by a protective force official that the protective force
             has updated its General Order on CAS operations regarding the
             requirement to have CAS operators log on to the alarm system
             when coming on duty. If effectively implemented, these actions
             should resolve the CAS operators log on issue.

ALARM        We found that when alarms for the rooftop doors of Building 6585
ASSESSMENT   were activated, there frequently was not an immediate assessment
             of the cause of each alarm, contrary to DOE policy. Specifically,
             DOE M 470.4-2, which was effective August 26, 2005, and was
             included in the Sandia contract under Appendix G, stated that:

                An effective method must be established for assessing
                all Intrusion Detection System (IDS) alarms . . . to
                determine the cause.

                (1) Alarms must be assessed immediately by either the
                PF [protective force] or by Central Alarm Station
                (CAS)/Secondary Alarm Station (SAS) personnel via
                Closed Circuit Television (CCTV).

             We reviewed the door alarm assessment records for the rooftop of
             Building 6585 for the period October 15, 2006, through October 31,
             2006. We determined that 64 of 198 alarms (32 percent) were not
             assessed within 10 minutes. Further, of the 64 alarms, 26 were not
             assessed for 1 hour or more, with the longest time period being 5 hours
             and 12 minutes.



Page 7                                                     Details of Findings
         Change 1 to DOE M 470.4-2 was issued March 7, 2006.
         Consistent with the original Manual, it required that intrusion
         detection system alarms used for the protection of Special Nuclear
         Material, classified matter, and Government property must be
         assessed immediately. We were told that, due to Sandia concerns
         regarding a series of changes to Department safeguards and
         security manuals, Change 1 was not incorporated into the Sandia
         contract until May 17, 2007.

         We learned that Sandia management has since requested
         clarification of “the new policy” since “the new standard
         represents a largely unachievable standard.” On July 18, 2007,
         Sandia management submitted an Implementation Plan for DOE M
         470.4-2, Change 1, describing requirements that “cannot be
         implemented within 30 days.” This plan sought clarification on
         the assessment of intrusion detection alarms, asking the question
         “What is DOE’s definition of the term ‘immediate?’”

         We were told by a Sandia Site Office official that the requirement
         for immediate assessment is inconsistent with the response times
         identified in DOE M 470.4-4, “Information Security,” for the
         protection of classified matter. We were also told that NNSA and
         the Site Office will recommend that this requirement be clarified
         during a rewrite of the Physical Protection Manual that is
         underway.

         While we understand Sandia’s concerns, we note that these
         concerns were not raised or resolved timely. The immediate
         assessment requirement was incorporated into Sandia’s contract in
         2005 and was supposed to be implemented within 30 days.
         Further, the alarm response times described in DOE M 470.4-4 for
         most assets are 15 and 30 minutes, yet we determined that in a
         number of cases alarms were not being assessed for well over 30
         minutes. This could permit an undetected intruder to access or
         divert Government property or information.

         We noted that the security system review conducted by Sandia
         management stated that any time an alarm is not assessed in a
         timely manner, it must be reported to the Shift Captain,
         investigated, and documented in the Daily Activity Report. We
         believe that, in addition to these actions, Sandia management needs
         to identify the root cause of the problem and develop policy to
         prevent future recurrence.




Page 8                                                Details of Findings
RECOMMENDATIONS   We recommend that the Manager, Sandia Site Office:

                  1. Seek timely resolution of policy concerns regarding alarm
                     response times and then ensure timely implementation of the
                     policy.

                  We also recommend that the Manager, Sandia Site Office, direct
                  Sandia to:

                  2. Issue written policies and procedures for maintaining doors in
                     “secure mode” during non-operational hours and for ensuring
                     that building alarms are not placed in “access mode” for
                     extended periods. Also, ensure these policies are followed.

                  3. Ensure that the Sandia Protective Force General Order
                     requirements for addressing situations where there is “No
                     Contact With a Post or Patrol” are followed, and that the Daily
                     Activity Report is documented as required.

                  4. Ensure that CAS operators are logged on to the SCCS at all
                     times, as required by Sandia Protective Force General Orders.

                  5. Identify the root cause of slow alarm response times and
                     develop policy and procedures to prevent future recurrence of
                     the problem.

MANAGEMENT        In comments on a draft of this report, management agreed with the
COMMENTS          factual accuracy of the report and its recommendations.
                  Management noted that the “Physical Protection Manual” is in a
                  re-write status and that appropriate items associated with the
                  recommendations will be incorporated into the Manual.
                  Management’s comments are included in their entirety at
                  Appendix B.

INSPECTOR         Management’s comments did not include planned corrective
COMMENTS          actions with target completion dates; therefore, consistent with
                  DOE Order 221.3, “Establishment of Management Decisions on
                  Office of Inspector General Reports,” a management decision is
                  required.




Page 9                                                    Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     The fieldwork for this inspection was concluded in December 2007.
METHODOLOGY   This inspection reviewed the alleged unauthorized weapon
              discharge incident and included:

                 •   Review of CAS operations;

                 •   Review of Sandia protective force orders;

                 •   Review of Sandia investigation reports;

                 •   Review of Sandia protective force alarm records and
                     security reports; and,

                 •   Interviews of Sandia protective force officials and SPOs.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 10                                              Scope and Methodology
Appendix B




Page 11      Management Comments
                                                                    IG Report No. INS-O-08-01




                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date __________________________

Telephone                                     Organization ____________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page

                                     http://www.ig.energy.gov

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
